    Audit Report




    OIG-12-005
    SAFETY AND SOUNDNESS: Failed Bank Review of First
    Southern National Bank
    November 9, 2011




    Office of
    Inspector General
    DEPARTMENT OF THE TREASURY


\
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220
             A

     OFFICE OF
INSPECTOR GE NE RAL
                                             November 9, 2011


             OIG-12-005

             MEMORANDUM FOR JOHN G. WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Susan Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of First Southern National Bank,
                                   Statesboro, Georgia


             This memorandum presents the results of our review of the failure of First Southern
             National Bank (First Southern) located in Statesboro, Georgia. First Southern, a
             community bank, was chartered in February 2002. The Office of the Comptroller of
             the Currency (OCC) closed First Southern and appointed the Federal Deposit
             Insurance Corporation (FDIC) as receiver on August 19, 2011. As of June 30,
             2011, First Southern had approximately $164.6 million in total assets and $159.7
             million in total deposits. As of August 31, 2011, FDIC estimated that the loss to
             the Deposit Insurance Fund was $39.6 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
             of the failure of First Southern that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
             5-year period before the bank’s failure, and (3) interviewed OCC personnel.

             We conducted this performance audit in August and September 2011 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-12-005
Page 2

Causes of First Southern’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial depletion of assets or earnings due to unsafe or unsound
practices; (2) the bank’s losses depleted all or substantially all of its capital and there
was no reasonable prospect for the bank to become adequately capitalized; and (3) the
bank was undercapitalized, and failed to submit a capital restoration plan acceptable to
OCC within the time prescribed.

The primary causes of First Southern’s failure were (1) its aggressive growth
strategy funded, in part, by wholesale sources that included brokered deposits,
Federal Home Loan Bank advances, and Internet certificates of deposits;
(2) excessive concentration in commercial real estate loans; and (3) ineffective
credit risk management practices. Additionally, the bank’s board and
management’s lax oversight and failure to adjust quickly or effectively to changing
economic conditions, coupled with the declining real estate markets in Georgia and
South Carolina, led to deterioration in the bank’s asset quality. As asset quality
declined, the loan-related losses increased, resulting in critically deficient capital
and earnings, which, ultimately, led to First Southern’s failure.

Conclusion
Based on our review of the causes of First Southern’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
this bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of failure
of First Southern and that it had no concerns with our determination that an in-
depth review of the bank’s failure is not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-12-005

       Attachment 1
Management Response
                                                   OIG-12-005

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
